BECKER GALLAGHER
Briefs

and

, DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Reply Brief for Petitioner in
19-197, Lavern Behm v. Montana-Dakota Utilities Co.,
were sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent Next Day Service and email to the following parties listed below, this 24th day
of October, 2019:
Dale Schowengerdt
Crowley Fleck PLLP
900 N Last Chance Gulch
#200
Helena, MT 59601
(406) 457-2040
dschowengerdt@crowleyfleck.com
Malcolm H. Brown
Crowley Fleck PLLP
100 West Broadway Ave.
Suite 250
Bismarck, ND 58502
(701) 223-6585
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A. KERSHNER, J.D.

Lynn M. Baughey
Counsel of Record
P.O. Box 1202
Mandan, ND 58554-1202
(701) 751-1485
lynnboughey@midconetwork.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 24, 2019.

DonnaJ. Wo
Becker Gallagher Leg Publishing, Inc.
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

